                             United States Department of the Interior
                                      OFFICE OF INSPECTOR GENERAL
                                           Washington, DC 20240




                                                                                  SEP 2 9 2009
The Honorable Brian D. Miller
Inspector General
U.S. General Services Administration
1800 F Street, NW, Room 5340
Washington, DC 20405

Subject:               System Review Report on the U.S. General Services Administration' s Office of
                       Inspector General Audit Organization
        .-'-'
    ~   I. /L-(   {,t fo-/
Dear Mr. MiHer:

        Enclosed is the final System Review Report of the U.S. General Services
Administration's Office oflnspector General (GSA OIG) audit organization conducted in
accordance with Government Auditing Standards and Council of the Inspectors General on
Integrity and Efficiency guidelines. Your response to the draft report is also enclosed.

       We appreciate your staffs time, effort, and professionalism during the conduct of our
review. If you have any questions or concerns, please do not hesitate to contact me at (202) 208-
5745.

                                            Sinc<1rel y,

                                           / 1' , ~.:,;:X;:: " /c:PakI~
                                            Mary L. Kendall
                                            Acting Inspector General

Enclosures (2)
                                                                                        Enclosure 1

                    United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL
                                     Washington, DC 20240




The Honorable Brian D. Miller                                             SEP 2 ~ 2009
Inspector General
U.S. General Services Administration
1800 F Street, NW, Room 5340
Washington, DC 20405

Dear Mr. Miller:

        We have reviewed the system of quality control for the audit organization of the U.S.
General Services Administration Office of Inspector General (GSA OIG) in effect for the year
ended March 31 , 2009. A system of quality control encompasses GSA OIG organizational
structure and the policies adopted and procedures established to provide it with reasonable
assurance of conforming with Government Auditing Standards. The elements of quality control
are described in Government Auditing Standards. The GSA OIG is responsible for designing a
system of quality control and complying with it to provide the GSA OIG with reasonable
assurance of performing and reporting in conformity with applicable professional standards in all
material respects. Our responsibility is to express an opinion on the design of the system of
quality control and GSA OIG compliance therewith based on our review.

        Our review was conducted in accordance with Government Auditing Standards and
guidelines established by the Council of the Inspectors General on Integrity and Efficiency
(CIGIE). During our review, we interviewed GSA OIG personnel and obtained an
understanding of the nature of the GSA OIG audit organization, and the design of the GSA OIG
system of quality control sufficient to assess the risks implicit in its audit function. Based on our
assessments, we selected engagements and administrative files to test for conformity with
professional standards and compliance with the GSA OIG system of quality control. The
engagements selected represented a reasonable cross-section of the GSA OIG audit organization,
with emphasis on higher-risk engagements. Prior to concluding the review, we reassessed the
adequacy of the scope of the peer review procedures and met with GSA OIG management to
discuss the results of our review. We believe that the procedures we performed provide a
reasonable basis for our opinion.

        In performing our review, we obtained an understanding of the system of quality control
for the GSA OIG audit organization. In addition, we tested compliance with the GSA OIG
quality control policies and procedures to the extent we considered appropriate. These tests
covered the application of the GSA OIG policies and procedures on selected engagements. Our
review was based on selected tests; therefore, it would not necessarily detect all weaknesses in
the system on quality control or all instances of noncompliance with it.
        There are inherent limitations in the effectiveness of any system of quality control, and
therefore noncompliance with the system of quality control, may occur and not be detected.
Projection of any evaluation of a system of quality control to future periods is subject to the risk
that the system of quality control may become inadequate because of changes in conditions, or
because the degree of compliance with the policies or procedures may deteriorate.

      The enclosure to this report identifies the GSA OIG offices that we visited and the
engagements that we reviewed.

         In our opinion, the system of quality control for the audit organization of the GSA OIG in
effect for the year ended March 31, 2009, has been suitably designed and complied with to
provide GSA OIG with reasonable assurance of performing and reporting in conformity with
applicable professional standards in all material respects. Federal audit organizations can receive
a rating of pass, pass with defiCiencies, or/ail. The GSA OIG has received a peer review rating
of pass. As is customary, we have issued a letter dated September 29, 2009, that sets forth
findings that were not considered to be of sufficient significance to affect our opinion expressed
in this report.

        In addition to reviewing its system of quality control to ensure adherence with
Government Auditing Standards, we applied certain limited procedures in accordance with
guidance established by the CIGIE related to GSA OIG monitoring of engagements performed
by Independent Public Accountants (IPA) under contract where the IPA served as the principal
auditor. Monitoring of engagements performed by IP As is not an audit and therefore is not
subject to the requirements of Government Auditing Standards. The purpose of our limited
procedures was to determine whether the GSA OIG had controls to ensure IPAs performed
contracted work in accordance with professional standards. Our objective, however, was not to
express an opinion and accordingly, we do not express an opinion, on the GSA OIG' s
monitoring of work performed by IP As.

                                       Sincerely,



                                      Mary L. Kendall
                                      Acting Inspector General

Enclosure
                                                                                         Enclosure


                                 SCOPE AND METHODOLOGY

We tested compliance with the GSA OIG audit organization’s system of quality control to the
extent we considered appropriate. These tests included a review of 10 of 122 audit and
attestation reports issued during the period April 1, 2008, through March 31, 2009, and 1 audit
report issued on March 31, 2008, which the GSA OIG had included in its own internal quality
assurance review performed during the period April 1, 2008, through March 31, 2009.

In addition, we reviewed the GSA OIG monitoring of the engagement performed by IPAs where
the IPA served as the principal auditor during the period April 1, 2008, through March 31, 2009.
During this period, the GSA OIG contracted for the audit of its agency’s Fiscal Year 2008
financial statements.

We visited the Washington, DC; Arlington, VA; Chicago, IL; San Francisco, CA; and Fort
Worth, TX offices of the GSA OIG.

Reviewed Engagements Performed by the GSA OIG

Report No.            Report Date            Report Title
A060228               3/31/2008              Improvements to the GSA Privacy Act Program are
                                             Needed to Ensure that Personally Identifiable
                                             Information (PII) is Adequately Protected
A070218               5/20/2008              Preaward Review of Multiple Award Schedule
                                             Contract Extension: KPMG, LLP, Contract Number
                                             GS-23F-8127H
A070211               5/30/2008              Preaward Review of Multiple Award Schedule
                                             Contract Extension: Jeskell, Incorporated, Contract
                                             Number GS-35F-4902H
A060125               6/4/2008               Audit of the Greater Chicagoland Service Center,
                                             Public Buildings Service, Great Lakes Region
A070096               6/24/2008              Review of GSA’s General Management and
                                             Administration Working Capital Fund
A070122               7/30/2008              Survey of the Federal Acquisition Service
                                             Organization
A080003               10/31/2008             Preaward Review of Multiple Award Schedule
                                             Contract Extension: Williams, Adley & Company,
                                             LLP, Contract Number GS-23F-8184H
A080185               12/16/2008             Review of a Claim: Pacific Coast Steel, Formerly Bay
                                             Area Reinforcing, Incorporated, Subcontractor to Dick
                                             Corporation/Morganti Group, A Joint Venture,
                                             Contract Number GS-09P-02-KTC-0002
A080067               2/4/2009               Preaward Review of Multiple Award Schedule
                                             Contract Extension: Haworth, Inc., Contract Number
                                             GS-28F-8014H
A080169               2/5/2009               Preaward Review of Multiple Award Schedule
                                             Contract Extension: Tremco Incorporated, Contract
                                             Number GS-07F-8798D
A080141               2/11/2009              Preaward Review of Multiple Award Schedule
                                             Contract Extension: KLN Steel Products Company,
                                                                                  Enclosure


                                      Contract Number GS-27F-2014B
Reviewed Monitoring Files of GSA OIG for Contracted Engagements

Report No.         Report Date        Report Title
A080108            12/18/2008         Audit of the General Services Administration’s Fiscal
                                      Year 2008 and 2007 Financial Statements
                                                                                      Enclosure 2

              U.S. GENERAL SERVICES ADMINISTRATION
              Office of Inspector General




 SEP 222009

 Kimberly Elmore
 Assistant Inspector General for
  Audits, Inspections and Evaluations
 U.S. Department ofInterior
 Office of Inspector General
 1849 C Street, NW
 Washington, DC 20240


 Subject: System Review Report on the General Services Administration's Office ofInspector
 General Audit Organization


 Dear Ms. Elmore:

 Thank you for providing the official draft System Review Report on the General Services
 Administration's Office ofInspector General Audit Organization conducted in accordance
 with the Government Audit Standards and the Council ofthe Inspectors General on Integrity
 and Efficiency guidelines.

 We are pleased with the rating of pass and the opinion that our system of quality control has
 been suitably designed and complied with to provide responsible assurance of performing
 and reporting in conformity with applicable professional standards in all material aspects.

 We appreciate the professionalism with which your staff conducted this review. If you have
 any questions, please contact Karen Yuu of my staff on (202) 219-0089 or me on (202) 501-
 0374.


 Sincerely,



A~~:..Y
 Assistant Inspector General for Auditing




                        1800 F Street, NW, Washington, DC 20405-0002
                                                    ~
                          Federal Recycling Program " - , Printed on Recycled Paper
